Case # 20-7799

PETITION FOR REHEARING
From Supreme Court of the United States Denial of Petition for Certiorari, June 21, 2021
From 4th Circuit Court of Appeals, Case #19-1409

Originally filed in North Carolina Federal District Court, Case #2:16-cv-00061-FL
SUSAN W. VAUGHAN

Individuals: SHANNON FOLTZ, SAMANTHA HURD, KRISTEN HARRIS, KATHLYN
ROMM, RAY MATUSKO, STEPHANIE RYDER, CHUCK LYCETT, MELANIE CORPREW,
JAY BURRUS, MELISSA TURNAGE, KATHERINE MCCARRON, OFFICER MIKE
SUDDUTH, OFFICER CARL WHITE

W. Cluotal
Susan W. Vaughan
1417 19th Street
Greensboro, N.C. 27405
wellsvaughan@gmail.com

0

Based on relevance of the June 25, 2021 Opinion, cited in parts below,
which clarifies the basis for lawsuits in defamation cases, Plaintiff argues that her
Petition for Certiorari merits rehearing, reconsideration and/or remand to the
lower court under the Supreme Court's practice of GVR.
To have Article III standing to sue in federal court, plaintiffs must demonstrate,
among other things, that they suffered a concrete harm.... Central to assessing
concreteness is whether the asserted harm has a "close relationship" to a harm
traditionally recognized as providing a basis for a lawsuit in American courts—
such as physical harm, monetary harm, or various intangible harms including (as
relevant here) reputational harm. Spokeo, Inc. v. Robins... [SUPREME COURT OF THE
UNITED STATES No. 20-297 TRANSUNION LLC, PETITIONER v. SERGIO L RAMIREZ [June 25, 2021]

District Court Judge Flanagan ruled, and the appeals court upheld, that
Plaintiff had no right to trial in federal court because defendants did not widely
publicize their false and defamatory statements about Plaintiff that they
disseminated, but never substantiated. However, on June 25, 2021, four days
affer this Court denied Plaintiff's Certiorari, the majority ruled that disclosure to a
third party that results in concrete harm to plaintiffs meets the criteria for
allowing those harmed plaintiffs to sue. The criteria are that the defamation be
disclosed in a way that results in court-remediable concrete injury.
Petitioner's case is NOT about a "defamatory letter stored in a desk
drawer"—NOT about DSS agents storing unshared derogatory comments in their
database. One third party to whom false, distorted and derogatory comments
/records were disclosed was Judge Amber Davis, who, in turn denied Plaintiff's
custody complaint and her petition to adopt her grandson and ultimately any
chance of plaintiff or EJV's mother having any contact with him for at least the

1

remainder of his childhood. That decision also resulted in putting EJV at risk
through his adoption to a habitually impaired and unlawfully reckless driver.
Before these false accusations were disclosed to all attending Plaintiff's
hearings for adoption and custody, Shannon Foltz and her supervisors violated
numerous statutes in disclosing initial false statements to Judge Davis, while
unlawfully seeking removal of EJV from Plaintiff's custody. This led to DSS agents
invading Plaintiff's home and ripping EJV from her arms, undeniably traumatizing
not only plaintiff and his mother, but most important, this 3-month-old child
who'd been well-cared-for by Plaintiff since birth. Within a short time, EJV, who
had been healthy since birth, lost weight and was hospitalized with pneumonia.
Subsequent to Dare CPS's unlawfully executed removal of EJV, Currituck
Defendants submitted Dare's, along with their own trumped-up fabricated and
defamatory allegations, to Judge Reid who held hearings in the adjoining
county after the case was unlawfully moved there, certainly influencing her
decision to keep EJV in foster care, as she would not allow Plaintiff to challenge
these lies until a future (never held) adjudication hearing. Although the most
damning charge was dropped, it was done secretly to block Plaintiff's right to
judicial review. All judges to whom these lies were disclosed: Davis, Trivette and
Reid, as a result, denied Plaintiff's right to custody of, placement with and/or
adoption of her only grandson. The secretly dropped charge was later used to
trick, threaten and coerce Plaintiff into signing a stipulation that put the majority
of lies on permanent record—then used to deny Plaintiff's right to adopt.
2

The false and defamatory allegations got and remained on the court
record first via DSS lies of omission about Plaintiff's custodial status, 1 which
resulted in violation of her due process right to be heard prior and subsequent to
a child custody determination. Defendants violated procedural due process in
bypassing the laws requiring their petition (containing defamatory allegations)
be taken to the courthouse and a hearing date set, unlawfully using emergency
procedure, without having any emergency, subsequently admitting, under
oath, that no emergency ever existed. These violations resulted in continued
improper hearings—denying Plaintiff's right to contest the lies and dismissing her
legal motions seeking redress and proper procedure—and even violation of her
right to privacy and to be secure in her own home (intrusion of seclusion).
Instead of correcting the initial violations and false allegations, and in
obvious retaliation for Plaintiff's attempts to do so and be heard, Defendants
then, again in violation of statute, moved the case to the next county.
District Judge Flanagan's order dismissing Plaintiff's lawsuit because the
general public did not have access to these defamatory allegations (until
Flanagan, herself, disclosed them in her ruling) conflicts with Supreme Court's
recent ruling in TRANSUNION LLC v. RAMIREZ, because it fails to acknowledge
that these false, derogatory statements were disclosed to third parties, and they
did result in serious harm to Plaintiff and her family. In addition to depriving
Plaintiff of any relationship with EJV, the years of hearings, litigation, trying to
1.This was not a normal prosecutorial role because the accused was denied right to contest, and the
omission was in a required status affidavit, part of CPS agents''ministerial role
3

defend her reputation and protect privacy and loved ones, created financial
hardship, including bankruptcy and the loss of her home of over 20 years.
Considering the fact that DSS agents' false, derogatory statements
against Plaintiff were disseminated and used to besmirch Plaintiff's character, to
remove EJV and keep him in custody of a man having a history of substance
abuse and driving while impaired, and then used to deny Plaintiff's right to
reunification with and adoption of her grandson - placing him permanently with
this risky foster father, in addition to causing her serious financial loss, Plaintiff
insists she has met the "fundamental standing requirement of concrete harm."
and the other requirements noted in Justice Kavanaugh's opinion, i.e.:
For there to be a case or controversy under Article Ill, the plaintiff must have a
"'personal stake" in the case—in other words, standing. Raines, 521 U. S., at 819. To
demonstrate their personal stake, plaintiffs must be able to sufficiently answer the
question: "'What's it to you?" .... a plaintiff must show (i) that he suffered an injury in
fact that is concrete, particularized, and actual or imminent; (H) that the injury was likely
caused by the defendant; and (iii) that the injury would likely be redressed by judicial
relief. Lujan v. Defenders of Wildlife, 504 U. S. 555, 560— 561 (1992).
Even if this Court agrees with Flanagan on Troxell, it cannot deny that
fabrication of evidence is a crime and civil rights violation—not just negligent
error, and Plaintiff does have a statutory right not to have her grandson
removed from her custody under false pretenses and in violation of due process,
a statutory right to reunification or kin placement of her grandson and, as
confirmed by In re W.B.M., a constitutional right to adopt her grandson, and that
these rights were denied because of the false allegations DSS unlawfully alleged
against Plaintiff and disclosed to Judges from whom they sought deprivation of
Plaintiff's rights. As stated in this Court's recent ruling:

4

Under longstanding American law, a person is injured when a defamatory statement "that
would subject him to hatred, contempt, or ridicule" is published to a third party. Milkovich v.
Lorain Journal Co., 497 U. S. 1, 13.

Few impressions are more contemptable than to be seen as a serious
child neglecter. W.B.M. describes the extreme degree and grave effects of such
accusations. But also contemptable is for a government agent to falsely inform
a judge, GAL and others that a person seriously neglected a child and then
maliciously and intentionally refuse to inform either the judge or the accused of
the withdrawal of that accusation, instead use it to threaten the accused into
agreeing to a less serious, yet still false, allegation! Plaintiff's Certiorari quotes
Defendant Romm's derogatory, damaging words (cited below) that she wrote
to the judge who would hear Plaintiff's complaint for custody and also provides
sufficient proof of how the referenced "stipulation" and "inappropriate"
deeming were fraudulently procured, the former by Romm's own fraud:
"...Plaintiff is unfit, in that on November 18, 2013, she stipulated that the child was
neglected, and she has been deemed an inappropriate placement provider by the Department
of Social Services and the Court" [DE-147, 49, p2].

Federal Court can provide some remedy for the injuries Plaintiff suffered
by ordering that she be allowed contact with her grandson, particularly to
ascertain whether or not he is safe. The court can also order monetary
damages. Although the court cannot undo the trauma, deprivation and
degradation fraudulently imposed upon Plaintiff and her family, money can
help pay for effective trauma therapies and ease current financial stress.
In consideration of all the facts and evidence submitted herein and all
others on record, Plaintiff respectfully requests that this highest Court reconsider
its denial of Plaintiff's Petition for Certiorari or, on the alternative, remand this
case back to District Court for reconsideration based on the Supreme Court's
June 25, 2021 ruling clarifying criteria for defamation lawsuits— criteria which do
not require that defamation be widely publicized in order to cause harm that
can be remedied by the courts to at least some degree.
5

CERTIFICATION
I certify, under penalty of perjury, that the foregoing is true and correct.
Executed on this the 30th day of June, 2021
Plaintiff also asks that the Court recognize Plaintiff's new address noted herein.
Respectfully submitted, this the 30th day of June, 2021

Susan Wells Vaughan
1417 19th Street
Greensboro, NC 27405

wellsvauahan@gmail.com

CERTIFICATION OF SERVICE
I, Plaintiff/Petitioner, Susan Wells Vaughan, certify that on this the 30th day of June, I
served upon all defendants' representing attorneys, named and at the addresses
below, copies of the foregoing Petition for Rehearing and the attached Certification of
Counsel affidavit. Copies were served via US Postal Service first class mail, enclosed in
envelopes with adequate postage attached.
I certify, under penalty of perjury, that the foregoing is true and correct. Executed on
this the 30th day of June, 2021

-kOJa

Susan Wells Vaughan
1417 19th Street
Greensboro, NC 27405
wellsvaughan@gmail.com

Christopher Geis
Womble, Bond Dickinson
One West Fourth St
Winston Salem, NC
27101

Dan Hartzog, Jr
Hartzog Law Group
2626 Glenwood Ave
Ste. 305
Raleigh, NC 27608

6

Kathryn Shields
NC DOJ
PO Box 629
Raleigh NC
27602-0629

Case # 20-7799
PETITION FOR REHEARING
From Supreme Court of the United States Denial of Petition for Certiorari, June
21, 2021
From 4th Circuit Court of Appeals, Case #19-1409
Originally filed in North Carolina Federal District Court, Case #2:16-cv-00061-FL
SUSAN W. VAUGHAN

Individuals: SHANNON FOLTZ, SAMANTHA HURD, KRISTEN HARRIS, KATHLYN
ROMM, RAY MATUSKO, STEPHANIE RYDER, CHUCK LYCETT, MELANIE CORPREW,
JAY BURRUS, MELISSA TURNAGE, KATHERINE MCCARRON, OFFICER MIKE
SUDDUTH, OFFICER CARL WHITE

CERTIFICATION OF COUNSEL AFFIDAVIT
I, Susan Wells Vaughan, certify that I am the pro se litigant/plaintiff in this
action, and that it is presented in good faith and not for delay; rather it is limited
to intervening circumstances of substantial effect and other substantial grounds
not previously presented, specifically in response to the new ruling, In re
TRANSUNION LLC v. RAMIREZ, entered on June 25, 2021, regarding clarification
of criteria for allowing a defamation/harm lawsuit that was misinterpreted or
misapplied by the lower courts.
I certify, under penalty of perjury, that the foregoing is true and correct.
Executed on this the 30th day of June, 2021

apt 741
lt--)
ita
Susan W. Vaughan
1417 19th Street
Greensboro, N.C. 27405
RECEIVED

)&ellsvaughan@gmail.com

JUL - 7 2021

WakiFc1439fM

